NO:

IN THE
SUPREME COURT OF THE UNITED STATES

MERRILEE STEWART, PETITIONER
V.
IHT INSURANCE AGENCY GROUP LLC WELFARE BENEFITS PLAN,
ET AL., RESPONDENTS

CERTIFICATE OF SERVICE
I, MERRILEE STEWART, Petitioner, hereby certify that on this 2nd day of August,
2021,1 caused true copies of the PETITION FOR WRIT OF CERTIORARI to be
served via electronic delivery on the following counsel representing respondents..
James R. Carnes (0070005)
Matthew T. Kemp (0093136)
Shumaker, Loop & Kendrick, LLP
1000 Jackson Street
Toledo, Ohio 43604
Telephone: (419) 241-9000
Emails: jcarnes@shumaker.com
mkemp@shumaker.com
Attorneys for the Respondents
Respectfully, a

*^1

Merrilee Stewart
Isl Merrilee Stewart
Merrilee Stewart
182 Corbins Mill Drive
Dublin, Ohio 43017
Phone: 614 395-9071
Fax: 740 965-4437
Email: Merrilee@TRGUnited.com
Merrilee Stewart, Pro Se on behalf of
Merrilee Stewart, Petitioner

